      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




October 17, 2011

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Appropriations Funding for National Institute of Diabetes and Digestive and
               Kidney Diseases Contract HHSN267-2007-00014C With the University of South
               Florida (A-03-10-03110)


The attached final report provides the results of our review of appropriations funding for
National Institute of Diabetes and Digestive and Kidney Diseases contract
HHSN267-2007-00014C with the University of South Florida.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-03-10-03110 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  APPROPRIATIONS FUNDING FOR
     NATIONAL INSTITUTE OF
  DIABETES AND DIGESTIVE AND
   KIDNEY DISEASES CONTRACT
  HHSN267-2007-00014C WITH
       THE UNIVERSITY OF
        SOUTH FLORIDA



                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-03-10-03110
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) is 1 of 27
institutes and centers of the National Institutes of Health (NIH), an agency of the Department of
Health and Human Services (HHS). The NIH Office of the Director sets policy and plans,
manages, and coordinates NIH-wide programs and activities. Like all Federal agencies, NIDDK
is required to comply with appropriations statutes when acquiring supplies and services with
appropriated funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). Federal statutes also limit the time during which an appropriation is available. A
fiscal year appropriation may be obligated only to meet a legitimate, or bona fide, need arising
in, or in some cases arising prior to but continuing to exist in, the appropriation’s period of
availability (31 U.S.C. § 1502). Congress determines the amount of funding available to an
agency for the purchase of goods and services by enacting appropriations. The Antideficiency
Act prohibits an agency from obligating or expending those funds in advance of or in excess of
an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency may fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though its
performance may extend into subsequent fiscal years.

On September 15, 2007, NIDDK awarded contract HHSN267-2007-00014C (the Contract),
totaling $169.4 million, to the University of South Florida in Tampa, Florida. The Contract
requires the contractor to serve as the data-coordinating center for a 10-year international clinical
study to determine the environmental causes of juvenile diabetes and to analyze the study’s
results. We determined that although the Contract statement of work may contain severable
elements, on balance the Contract was nonseverable because it provided for a single outcome (a
comprehensive set of technical and statistical reports) at the conclusion of the 10-year study.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or



                                                  i
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NIDDK funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NIDDK funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIDDK did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NIDDK funded only
$46.2 million of the $169.4 million Contract obligation with fiscal year 2007 appropriations.
NIDDK obligated $10.5 million of fiscal year 2008 appropriated funds in violation of the bona
fide needs rule and planned to obligate funds appropriated for future years as well. Because the
Contract was for nonseverable services, NIDDK was required to record the full amount of the
Contract using fiscal year 2007 appropriated funds. By not doing so, NIDDK potentially
violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NIDDK will need to deobligate the fiscal year
2008 appropriations and any future-year appropriations obligated after our review and obligate
$123.2 million ($169.4 million less $46.2 million) using fiscal year 2007 appropriations. If
NIDDK does not have $123.2 million of fiscal year 2007 appropriations available, it will violate
the Antideficiency Act.

In addition, the NIH Office of Financial Management paid a duplicate charge of $27,707 on
behalf of NIDDK.

RECOMMENDATIONS

We recommend that NIDDK:

   •   deobligate $10.5 million of fiscal year 2008 funds,

   •   deobligate any additional funds appropriated for years other than fiscal year 2007 that
       NIDDK may have obligated after our audit,

   •   record the remaining $123.2 million of the $169.4 million Contract obligation against
       fiscal year 2007 funds,

   •   report an Antideficiency Act violation if fiscal year 2007 funds are not available, and

   •   obtain a refund for the duplicate payment of $27,707.




                                                ii
NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH agreed that a bona fide needs violation had
occurred and admitted violating the Antideficiency Act. NIH did not agree with our
characterization of the Contract as a nonseverable service contract or the nature of the bona fide
needs violation and, therefore, did not concur with the audit recommendation to correct the
funding of the Contract.

Specifically, NIH stated that the Contract was for severable services and that it violated the bona
fide needs rule because it obligated the Government to acquire severable services in advance of
appropriations that could be used for such services. However, NIH said that HHS had reported
the Antideficiency Act violation as required by 31 U.S.C. § 1351. NIH did not say that it had
made or planned to make any corrections to the Contract funding.

NIH stated that on April 19, 2010, it had recovered the duplicate payment of $27,707 as an offset
against a subsequent invoice.

NIH’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While the statement of work may contain severable elements, we maintain that, on balance, the
Contract is nonseverable. We determined the Contract was nonseverable because it was
identified as “a 10-year international clinical study to determine the environmental causes of
juvenile diabetes, and to analyze the study’s results” and because it provided for a single
outcome (a comprehensive set of technical and statistical reports) at the conclusion of the
10-year study. Further, NIH stated that the Contract was for severable services but admitted that
it did not properly fund the obligation under any of the allowable funding methods for severable
service contracts.

NIH admitted violating the bona fide needs rule and the Antideficiency Act and stated that HHS
has reported an Antideficiency Act violation. However, NIH failed to identify any actions, taken
or planned, to correct the improper funding of the Contract as either a nonseverable or severable
services contract. Until NIH takes corrective action, HHS cannot report the correct amount of its
Antideficiency Act violation.

We have modified our recommendations to identify by fiscal year the adjustments necessary to
properly fund a nonseverable services contract. As noted in the modified recommendations,
NIDDK must record the remaining $123.2 million against fiscal year 2007 funds and deobligate
funds appropriated for other years.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Federal Appropriations Statutes ............................................................................ 1
              National Institute of Diabetes and Digestive and Kidney Diseases
               Contract Award .................................................................................................. 2
              Departmental Review of National Institutes of Health Contracts ........................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FUNDING VIOLATIONS ............................................................................................... 3
               Bona Fide Needs Rule Violation .......................................................................... 3
               Potential Antideficiency Act Violation................................................................. 4

          CAUSES OF FUNDING VIOLATIONS ......................................................................... 4

          PAYMENT ERROR ......................................................................................................... 5

          RECOMMENDATIONS .................................................................................................. 5

          NATIONAL INSTITUTES OF HEALTH COMMENTS ............................................... 5

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

The National Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) is 1 of 27
institutes and centers of the National Institutes of Health (NIH), an agency of the Department of
Health and Human Services (HHS). The NIH Office of the Director sets policy and plans,
manages, and coordinates NIH-wide programs and activities. Like all Federal agencies, NIDDK
is required to comply with appropriations statutes when acquiring supplies and services with
appropriated funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation is made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with separate subsequent fiscal year appropriations. A contract for a single outcome or effort is
chargeable to the fiscal year in which it is awarded, even though its performance may extend into
subsequent fiscal years. The Comptroller General has explicitly held that incremental funding
(i.e., other than full funding) of nonseverable service contracts violates the bona fide needs rule
without statutory authority (71 Comp. Gen. 428 (1992)).

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, part 4, § 145, prescribes the methodology for this reporting.

National Institute of Diabetes and Digestive and Kidney Diseases Contract Award

On September 15, 2007, NIDDK awarded contract HHSN267-2007-00014C (the Contract),
totaling $169.4 million, to the University of South Florida located in Tampa, Florida. The
Contract requires the contractor to serve as the data-coordinating center for “The Environmental
Determinants of Diabetes in the Young,” a 10-year international clinical study to determine the
environmental causes of juvenile diabetes, and to analyze the study’s results. We determined
that, although the Contract statement of work may contain severable elements, on balance the
Contract was nonseverable because it provided for a single outcome (a comprehensive set of
technical and statistical reports) at the conclusion of the 10-year study.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law. 3 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIDDK funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2007
through 2009. We did not review NIDDK’s internal controls because our objective did not
require such a review.

We performed our fieldwork at NIDDK in Bethesda, Maryland.




3
    Funding Multiple Year Contracts: Tiger Team Summary Report, July 29, 2009.


                                                        2
Methodology

To accomplish our objective, we:

   •   reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •   reviewed the Tiger Team report;

   •   reviewed Contract file documentation, including the statement of work, to determine the
       nature of the products or services to be provided; and

   •   analyzed funding documents and payment invoices to determine what appropriations
       were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

NIDDK funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIDDK did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NIDDK funded only
$46.2 million of the $169.4 million Contract obligation with fiscal year 2007 appropriations.
NIDDK obligated $10.5 million of fiscal year 2008 appropriated funds in violation of the bona
fide needs rule and planned to obligate funds appropriated for future years as well. Because the
Contract was for nonseverable services, NIDDK was required to record the full amount of the
Contract using fiscal year 2007 appropriated funds. By not doing so, NIDDK potentially
violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NIDDK will need to deobligate the fiscal year
2008 appropriations and any future-year appropriations obligated after our review and obligate
$123.2 million ($169.4 million less $46.2 million) using fiscal year 2007 appropriations. If
NIDDK does not have $123.2 million of fiscal year 2007 appropriations available, it will violate
the Antideficiency Act.

In addition, the NIH Office of Financial Management paid a duplicate charge of $27,707 on
behalf of NIDDK.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violation

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability


                                                  3
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved. A contract for nonseverable services
must reflect a bona fide need identified in the fiscal year in which the agency awards the
contract, although the contract’s performance may extend into subsequent fiscal years. An
agency must fully fund nonseverable service contracts by obligating funds representing the entire
amount of the contract from appropriations available during the fiscal year in which the agency
awards the contract.

In fiscal year 2007, NIDDK awarded the 10-year nonseverable service Contract and incurred an
obligation totaling $169.4 million based on an existing bona fide need. However, NIDDK
recorded only $46.2 million of the obligation with fiscal year 2007 appropriations.
Subsequently, NIDDK improperly recorded an obligation of $10.5 million using fiscal year 2008
funds. However, NIDDK did not have a bona fide need in fiscal year 2008. To remedy the bona
fide needs violations, NIDDK will need to deobligate the $10.5 million fiscal year 2008
appropriation and any future-year appropriations obligated after our review and obligate
$123.2 million ($169.4 million less $46.2 million) using fiscal year 2007 appropriations.

Potential Antideficiency Act Violation

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, part 4, § 145, prescribes the methodology for
this reporting.

NIDDK should have recorded the full fiscal year 2007 obligation for $169.4 million at the time
of the Contract award. Instead, NIDDK recorded only $46.2 million of the obligation with fiscal
year 2007 appropriations. As noted above, to correct the bona fide needs violation, NIDDK will
need to record an obligation of $123.2 million using fiscal year 2007 appropriations. If NIDDK
does not have $123.2 million of fiscal year 2007 appropriations available, it will violate the
Antideficiency Act.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

   •   widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

   •   the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

   •   the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.



                                                4
The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued it on December 20, 2006, 9 months before NIDDK awarded the Contract.

PAYMENT ERROR

The NIH Office of Financial Management paid a duplicate charge of $27,707 on behalf of
NIDDK. NIDDK advised us that the Office of Financial Management should have suspended
the original invoice for $27,707 but erroneously paid it. When the University of South Florida
submitted a corrected invoice for $178,239, which included the $27,707, NIH paid the charge
again.

RECOMMENDATIONS

We recommend that NIDDK:

   •   deobligate $10.5 million of fiscal year 2008 funds,

   •   deobligate any additional funds appropriated for years other than fiscal year 2007 that
       NIDDK may have obligated after our audit,

   •   record the remaining $123.2 million of the $169.4 million Contract obligation against
       fiscal year 2007 funds,

   •   report an Antideficiency Act violation if fiscal year 2007 funds are not available, and

   •   obtain a refund for the duplicate payment of $27,707.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH agreed that a bona fide needs violation had
occurred and admitted violating the Antideficiency Act. NIH did not agree with our
characterization of the Contract as a nonseverable service contract or the nature of the bona fide
needs violation and, therefore, did not concur with the audit recommendation to correct the
funding of the Contract.

Specifically, NIH stated that the Contract was for severable services and that it violated the bona
fide needs rule because it obligated the Government to acquire severable services in advance of
appropriations that could be used for such services. However, NIH said that HHS had reported
the Antideficiency Act violation as required by 31 U.S.C. § 1351. NIH did not say that it had
made or planned to make any corrections to the Contract funding.

NIH stated that on April 19, 2010, it had recovered the duplicate payment of $27,707 as an offset
against a subsequent invoice.

NIH’s comments are included in their entirety as the Appendix.




                                                 5
OFFICE OF INSPECTOR GENERAL RESPONSE

While the statement of work may contain severable elements, we maintain that, on balance, the
Contract is nonseverable. We determined the Contract was nonseverable because it was
identified as “a 10-year international clinical study to determine the environmental causes of
juvenile diabetes, and to analyze the study’s results” and because it provided for a single
outcome (a comprehensive set of technical and statistical reports) at the conclusion of the
10-year study. Further, NIH stated that the Contract was for severable services but admitted that
it did not properly fund the obligation under any of the allowable funding methods for severable
service contracts.

NIH admitted violating the bona fide needs rule and the Antideficiency Act and stated that HHS
has reported an Antideficiency Act violation. However, NIH failed to identify any actions, taken
or planned, to correct the improper funding of the Contract as either a nonseverable or severable
services contract. Until NIH takes corrective action, HHS cannot report the correct amount of its
Antideficiency Act violation.

We have modified our recommendations to identify by fiscal year the adjustments necessary to
properly fund a nonseverable services contract. As noted in the modified recommendations,
NIDDK must record the remaining $123.2 million against fiscal year 2007 funds and deobligate
funds appropriated for other years.




                                                6
APPENDIX
                                                                                                                   Page 1 of3
                           APPENDIX: NATIONAL INSTITUTES OF HEALTH COMMENTS



 .... \n¥'("f'



/~
( ••~                    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                    Public Health Service



                                                                                                   National Institutes of Health
                                                                                                   Bethesda, Maryland 20892




                 AUG      5 2011



                 TO: 	        Daniel R. Levinson 

                              Inspector General, HHS 


                 FROM: 	      Director, National Institutes of Health

                 SUBJECT: 	 Response to OIG Draft Report, Appropriations Funding/or National Ins/ilute 0/
                            Diabetes and Digestive and Kidney Diseases Contract HHSN267-2007-00014C
                            With the University 0/ South Florida (A-03-1 0-031] 0)


                 Attached are the National Institutes of Health's comments on the Office of Inspector General's
                 draft report entitled, Appropriations Funding/or National Imlitute 0/ Diabetes and Digestive
                 and Kidney Diseases Contract HHSN267-2007-00014C With the University o/South Florida
                 (A-OJ-10-03110).

                 We appreciate the opportunity to review and comment on this important topic. We have
                 provided general comments that address the findings and recommendations in the draft report.
                 Should you have questions or concerns regarding our comments, please contact Meredith Stein
                 in the Office of Management Assessment at 30] -402-8482.


                                                                 Of"~ 1~.J.~
                                                      r   II'-   Fran~is S. Collins, M.D., Ph.D.
                 Attachment
                                                                                                Page 2 of3



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED:
APPROPRIA TlONS FUNDING FOR NA TIONAL INSTITUTE OF DIABETES AND
DIGESTIVE AND KIDNEY DISEASES CONTRACT HHSN267-2007-00014C WITH THE
UNIVERSITY OF SOUTH FLORIDA (A-03-10-0311O)


The National Institutes of Health (NIH) appreciates the review conducted by the Office of
Inspector General (OIG) and the opportunity to provide clarification on this draft report. NIH
respectfully submits the following comments .

Summary of OIG Findings:

    • 	 The National Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) did not
        comply with the time requirements and may not have complied with the amount
        requirements specified in Federal appropriations statutes. NIDDK funded only $46.2
        million of the $169.4 million contract obligation with fiscal year 2007 appropriations .
        NIDDK obligated $10.5 million of fiscal year 2008 appropriated funds in violation of the
        bona fide needs rule and planned to obligate funds appropriated for future years as well.

    • 	 Because the contract was for nonseverable services, NIDDK was required to record the
        full amount of the contract using fiscal year 2007 appropriated funds. By not recording
        the full obligation using fiscal year 2007 appropriations, NIDDK potentially violated the
        Antideficiency Act.

    • 	 The NIH Office of Financial Management, on behalf ofNIDDK, paid a duplicate charge
        (invoice) 0[$27,707 in error.

Summary of OIG Recommendations:

    • 	 NIDDK should record the remaining $123.2 million of the $169.4 million contract
        obligation against fiscal year 2007 funds and deobligate funds appropriated for years
        other than fiscal year 2007.

    • 	 NIDDK must report an Antideticiency Act violation if fiscal year 2007 funds are not
        available.

    • 	 NIDDK should obtain a refund for the duplicate payment of $27,707.

NIH Comments:

NIH does not concur with OIG's findings that the contract is for the performance of nonseverable
services and, therefore, does not concur with the recommendations based upon those findings.
NIDDK Contract HHSN267~2007-00014C is for the performance of services to support an
NIDDK ten-year clinical study, not to perform the study itself. The NIDDK services contract
supports the clinical study by requiring the contractor to provide continuous and recurring data
management and coordinating services that NIDDK needs during each of the fiscal years
                                                                                           Page 3 of3




GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED:
APPROPRIA TIONS FUNDING FOR NA TIONAL INSTITUTE OF DIABETES AND
DIGESTIVE AND KIDNEY DISEASES CONTRACT HHSN267-2007-00014C WITH THE
UNIVERSITY OF SOUTH FLORIDA (A-03-10-03110)


covered by the contract. Consequently, the contract is for the perfonnance of severable rather
than nonsevcrable services.

As awarded, the NIDDK contract was a multiple year contract covering the needs of more than
one fiscal year. More specifically, it was a ten-year contract for the performance of severable
services that NIDDK needed during the year in which the contract was awarded and in each of
the subsequent fiscal years covered by the contract. The NIDDK appropriation that was
available for obligation at the time of contract award was an annual appropriation and properly
available for obligation only for the bonafide needs of that fiscal year. The NIDDK
appropriations for those services needed in each of the subsequent nine years ofthe contract had
not yet been made when the contract was awarded. Consequently, NIDDK violated the
Antideficiency Act when it awarded a contract that obligated NIDDK appropriations not yet
made, as prohibited by 31 U.S.C. § 1341(a)(l)(B).

NIH concurs that a violation of the Antideficiency Act occurred with respect to this contract.
The Department of Health and Human Services (HHS) has reported the violation as required by
31 U.S.c. § 1351 based on its finding that NIH awarded a mUltiple year contract for severable
services and legally obligated the government to pay for services needed in future years before
NIH had received an appropriation to pay for those future services. The HHS report has
identified the proposed actions taken to correct the systemic problems within HHS which led to
this and other violations.

Regarding the duplicate payment, NIH has recovered the excess payment to the University of
South Florida via an offset to a subsequent invoice. This action was ~ompleted on April 19,
2010.




                                                                                                  2

